APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(November 5, 2019). . . . . . . . . . . . App. 1
Appendix B Order and Final Judgment in the
United States District Court,
Northern District of Texas, Dallas
Division
(June 4, 2018) . . . . . . . . . . . . . . . App. 15
Appendix C 15 U.S.C. § 77t . . . . . . . . . . . . . . App. 25
15 U.S.C. § 77v . . . . . . . . . . . . . . App. 31
15 U.S.C. § 78u . . . . . . . . . . . . . . App. 34
15 U.S.C. § 78aa . . . . . . . . . . . . . App. 53

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10931
[Filed November 5, 2019]
_______________________________________
SECURITIES AND EXCHANGE
)
COMMISSION,
)
Plaintiff - Appellee
)
)
v.
)
)
TEAM RESOURCES INCORPORATED; )
FOSSIL ENERGY CORPORATION;
)
KEVIN A. BOYLES,
)
Defendants - Appellants
)
______________________________________ )
Appeals from the United States District Court
for the Northern District of Texas
Before KING, HIGGINSON, and DUNCAN, Circuit
Judges.
STUART KYLE DUNCAN, Circuit Judge:
The Securities and Exchange Commission (“SEC”)
filed an enforcement action against Kevin Boyles and
two companies he created, Team Resources and Fossil
Energy, because it believed Boyles was scamming
investors. While the case was pending, the Supreme

App. 2
Court decided Kokesh v. SEC, in which it held that
disgorgement in SEC proceedings is a “penalty” under
28 U.S.C. § 2462 and therefore subject to a five-year
statute of limitations. 137 S. Ct. 1635, 1643 (2017). We
must decide whether Kokesh necessarily overruled our
established precedent recognizing district courts’
authority to order disgorgement in SEC enforcement
proceedings. See, e.g., SEC v. Blatt, 583 F.2d 1325,
1335 (5th Cir. 1978). It did not. We recognize that the
Supreme Court has recently agreed to review a Ninth
Circuit decision addressing whether district courts
have disgorgement authority after Kokesh. See SEC v.
Liu, 754 F. App’x 505 (9th Cir. 2018) (unpublished),
cert. granted sub nom. Liu v. SEC, --- S. Ct. ---, 2019
WL 5659111 (U.S. Nov. 1, 2019) (No. 18-1501).
Nonetheless, “we have traditionally held that even
when the Supreme Court has granted certiorari in a
relevant case, we will continue to follow binding
precedent.” United States v. Islas-Saucedo, 903 F.3d
512, 521 (5th Cir. 2018) (citing Wicker v. McCotter, 798
F.2d 155, 158 (5th Cir. 1986)). We therefore affirm the
district court’s disgorgement order as well as its other
decisions challenged here.
I.
The SEC alleged the following facts to which Boyles,
Team Resources, and Fossil Energy (collectively,
“Appellants”) stipulated for the limited purpose of the
disgorgement order under review here. In 2008 Boyles
formed Team Resources Incorporated to be the
managing general partner for multiple oil and gas
limited partnerships. Boyles used Team Resources to
buy oil and gas leases, which he then placed in limited

App. 3
partnerships managed by Team Resources. Through
various limited partnerships managed by both Team
Resources and Fossil Energy (a company Boyles
created later), Boyles raised money from 475 investors
to the tune of $33 million. Boyles and his
salespeople—none of whom was registered as a
securities broker as required by law—promised skyhigh returns on investment.
Things did not work out that way. The oil and gas
leases were not commercially viable—a fact the SEC
alleges Boyles knew beforehand. Investment returns
were bad or non-existent. Yet Boyles painted a positive
picture for investors instead of disclosing the dismal
reality. All the while, the salespeople collected
commissions ranging from 15% to 25% (a detail not
disclosed to investors). In the end, the investors lost all
or most of their money.
The SEC then sued Boyle, Team Resources, and
Fossil Energy.1 Settlement was almost instantaneous.
Appellants neither admitted nor denied the allegations
of the complaint but agreed that the court would enter
a permanent injunction against them enjoining any
future violations of securities laws. Appellants also
agreed “that the Court shall order disgorgement of illgotten gains, with prejudgment interest thereon.” The
agreements provided that “[i]n connection with the
Commission’s motion for disgorgement and/or civil
penalties, the parties may take discovery, including
discovery from appropriate non-parties.” The district

1

The complaint also named other defendants, but they are not
parties to this appeal.

App. 4
court entered the agreements, required Appellants to
“pay disgorgement of ill-gotten gains,” and stated that
it would determine the amounts of that disgorgement
“upon motion of the Commission.”
In February 2017, the SEC moved for remedies and
final judgment, asking for disgorgement in the amount
of $30,494,037. Appellants responded that the five-year
statute of limitations in 28 U.S.C. § 2462 barred the
SEC from seeking the disgorgement amount it
requested. They also contended that the SEC’s
disgorgement calculation failed to account for
legitimate business expenses and generally failed to
distinguish lawfully obtained funds from those that
were ill-gotten.
While the SEC’s motion was pending, the Supreme
Court held in Kokesh v. SEC that disgorgement in SEC
enforcement proceedings is a “penalty” under § 2462
and therefore subject to a five-year statute of
limitations. 137 S. Ct. at 1643. In response, the SEC
amended its motion in this case and reduced the
amount of disgorgement sought to $15,508,280 to
reflect the five-year limit. Appellants again attacked
the disgorgement amount, but this time they also
argued that, after Kokesh, district courts no longer
have authority to order disgorgement in SEC
proceedings. Appellants also stated that they would
“contend at a hearing” that various expenses must be
deducted from the disgorgement amount and asserted
that they “should have an opportunity in discovery, in
advance of a hearing,” to test the SEC’s calculation.
Appellants did not, however, actually move for a
hearing, and one was never held.

App. 5
The district court granted the SEC’s motion in part.
Appellants were ordered to disgorge $15,508,280.
Noting that Kokesh itself had expressly stated that
“[n]othing in [its] opinion should be interpreted as an
opinion on whether courts possess authority to order
disgorgement in SEC enforcement proceedings,” 137 S.
Ct. at 1642 n.3, the district court rejected Appellants’
argument that it could not order disgorgement. It also
rejected Appellants’ challenges to the amount of
disgorgement and declined to deduct any money as a
legitimate business expense because the
“overwhelming weight of authority hold[s] that
securities law violators may not offset their
disgorgement liability with business expenses.” SEC v.
Kahlon, 873 F.3d 500, 509 (5th Cir. 2017) (per curiam)
(alteration in original) (quoting SEC v. United Energy
Partners, Inc., 88 F. App’x 744, 746 (5th Cir. 2004)).
This appeal followed. We have jurisdiction pursuant to
28 U.S.C. § 1291.
II.
Whether the district court had authority to order
disgorgement is a legal question reviewed de novo. SEC
v. AMX Int’l, Inc., 7 F.3d 71, 73 (5th Cir. 1993). We
review the court’s decision to order disgorgement for
abuse of discretion. Kahlon, 873 F.3d at 504. An abuse
of discretion standard also applies to the court’s
decision not to order discovery or hold an evidentiary
hearing. United States ex rel. Taylor-Vick v. Smith, 513
F.3d 228, 232 (5th Cir. 2008); Leedo Cabinetry v. James
Sales & Distrib., Inc., 157 F.3d 410, 414 (5th Cir. 1998).

App. 6
III.
Appellants argue that, by finding disgorgement a
“penalty” under § 2462, Kokesh necessarily also decided
that disgorgement is not an equitable remedy courts
may impose in SEC enforcement proceedings. We
disagree. Kokesh itself expressly declined to address
that question, and so our precedent upholding district
court authority to order disgorgement controls.
Appellants’ argument that the district court abused its
discretion by not ordering discovery or holding a
hearing on disgorgement also fails because the district
court implemented the terms of the parties’ settlement
agreement and Appellants failed to request a hearing
or initiate any discovery.
A.
In Kokesh v. SEC, the Supreme Court held that
disgorgement constitutes a “penalty” for purposes of 28
U.S.C. § 2462 and that disgorgement actions must
therefore commence within five years of the accrual of
the cause of action. 137 S. Ct. at 1639. The defendant
in Kokesh was accused of misappropriating nearly $35
million from various companies between 1995 and
2009. Id. at 1641. A jury found the defendant violated
applicable securities laws. Id. The district court
recognized that § 2462’s limitations period barred any
penalties for misappropriation more than five years
before the SEC filed its complaint, but held that § 2462
did not apply because disgorgement is not a “penalty”
under the statute. Id. The Tenth Circuit affirmed.
In reversing the Tenth Circuit, the Supreme Court
cited its decision in Huntington v. Attrill, 146 U.S. 657

App. 7
(1892), which defined “penalty” as a “punishment,
whether corporal or pecuniary, imposed and enforced
by the State, for a crime or offen[s]e against its laws.”
Kokesh, 137 S. Ct. at 1642 (alteration in original).
Applying that definition, the Court reasoned that
disgorgement is ordered by courts for violations
committed against the United States and that it is
imposed for punitive purposes. Id. at 1643. Thus, the
Court concluded, disgorgement qualifies as a “penalty”
under § 2462.
Yet Kokesh cabined its own reach: “Nothing in this
opinion,” the Court stated, “should be interpreted as an
opinion on whether courts possess authority to order
disgorgement in SEC enforcement proceedings or on
whether courts have properly applied disgorgement
principles in this context.” Id. at 1642 n.3. “The sole
question presented in this case,” the Court continued,
“is whether disgorgement, as applied in SEC
enforcement actions, is subject to § 2462’s limitations
period.” Id. (emphasis added).
Despite this clear statement, Appellants contend
that Kokesh implicitly did what it explicitly said it did
not do. The thrust of their argument is that Kokesh, by
deciding that disgorgement constitutes a penalty under
§ 2462, necessarily decided that disgorgement is no
longer an equitable remedy. Since “[f]ederal courts are
courts of limited jurisdiction[,]” and only have “power
authorized by Constitution and statute,” Kokkonen v.
Guardian Life Ins. Co. of America, 511 U.S. 375, 378
(1994), the authority to order a disgorgement penalty
must come from a statutory source. Yet the statutes
governing civil enforcement actions do not explicitly

App. 8
authorize disgorgement even though they authorize
civil monetary penalties. See 15 U.S.C. §§ 77t(d);
78u(d)(3). And the Penny Stock Reform Act, which does
authorize disgorgement, only does so for administrative
proceedings. See 15 U.S.C. § 77h-1(e); see also id. § 78u2(e). Thus, Appellants contend, the district court lacked
authority to order disgorgement in this civil
enforcement action.
We are not persuaded Kokesh decided that much.
Kokesh decided only the issue before it—“whether
§ 2462 applies to claims for disgorgement imposed as a
sanction for violating a federal securities law.” 137 S.
Ct. at 1639. The Court’s discussion, while examining
whether disgorgement is properly classified as a
“penalty” in the context of that single statute, did not
purport to decide that disgorgement can never be
classified as equitable in any context. To the contrary,
Kokesh expressly disavowed that it was addressing
“whether courts possess authority to order
disgorgement in SEC enforcement proceedings.” 137 S.
Ct. at 1642 n.3.2 We are thus not convinced that Kokesh
2

Appellants assert that the relevant footnote in Kokesh “is . . .
reasonably understood to be the Supreme Court’s recognition that
it was only tasked with deciding whether disgorgement in
securities-enforcement actions was a civil penalty, and that it
would, as it often does, save for another day a question not then
before it.” Pet. Br. at 21–22. We agree. But that only underscores
the point that Kokesh does not unequivocally overturn district
courts’ authority to order disgorgement in SEC enforcement cases.
Appellants further assert that “[t]here would be no logical reason
for the Supreme Court’s comment if it believed that courts have
been properly applying the disgorgement penalty.” Id. (emphasis
in original). We disagree. The fact that Appellants cite Kokesh for
the proposition that courts lack authority to order disgorgement

App. 9
quietly revolutionized SEC enforcement proceedings
while at the same time explicitly stating it was not
doing so. Our conclusion mirrors those reached by our
sister circuits when facing this issue. See SEC v. de
Maison, --- F. App’x ---, 2019 WL 4127328 (2d Cir.
Aug. 30, 2019) (unpublished); Liu, 754 F. App’x 505.3
Furthermore, our circuit’s rule of orderliness prohibits
one panel from overturning a previous panel’s decision
“absent an intervening change in the law, such as by a
statutory amendment, or the Supreme Court, or our en
banc court.” Mercado v. Lynch, 823 F.3d 276, 279 (5th
Cir. 2016) (quoting Jacobs v. Nat’l Drug Intelligence
Ctr., 548 F.3d 375, 378 (5th Cir. 2008)) (italics in
original). Supreme Court decisions do not overturn
inferior-court decisions with a wink and a nudge. Even
if a Supreme Court decision bears on an issue, “the . . .
decision must be more than merely illuminating” and
must “unequivocally direct[ ]” the overruling of the
prior decision. Martin v. Medtronic, Inc., 254 F.3d 573,
577 (5th Cir. 2001) (quoting United States v. ZunigaSalinas, 945 F.2d 1302, 1306 (5th Cir. 1991)). Anything
less does not authorize panel to overrule panel. Id.
Kokesh may be “illuminating” on a court’s authority
to order disgorgement in this setting, but it does not
“unequivocally” direct us to overrule our prior cases

illustrates exactly why the Supreme Court included footnote 3.
Moreover, the footnote does not state that the Court doubts that
district courts lack authority; it states only that the Court was not
deciding the question.
3

As already noted, the Supreme Court granted certiorari in Liu on
November 1, 2019.

App. 10
upholding that authority.4 Since at least 1978 we have
recognized that a “trial court act[s] properly within its
equitable powers in ordering [a defendant] to disgorge
the profits that he obtained by fraud.” Blatt, 583 F.2d
at 1335. Numerous other cases have proceeded on the
assumption that such authority exists. See, e.g.,
Kahlon, 873 F.3d at 509; AMX, Int’l., 7 F.3d 71; SEC v.
Huffman, 996 F.2d 800 (5th Cir. 1993). In short, the
principle that district courts may order disgorgement
in SEC enforcement proceedings is well established in
our circuit. We are therefore bound, as a panel, to
follow that precedent absent an intervening change in
the law. Mercado, 823 F.3d at 279.
In sum, we hold that Kokesh did not unequivocally
abrogate our circuit precedent that the district court
was authorized to order disgorgement against
Appellants in this case.5

4

True, during the Kokesh oral argument some members of the
Supreme Court questioned the source of courts’ authority to order
disgorgement in civil enforcement proceedings. See, e.g., Oral
Argument at 5:00, Kokesh v. SEC, 137 S. Ct. 1635 (2017) (No. 16529), https://ww w .sup re me court.go v /oral_ arg uments/
audio/2016/16-529. And one scholar has argued that Kokesh “cast
considerable doubt on the validity of the seemingly wellestablished disgorgement sanction.” Stephen M. Bainbridge,
Kokesh Footnote Three Notwithstanding: The Future of the
Disgorgement Penalty in SEC Cases, 56 Wash. U. J.L. & Pol’y 17
(2018). But neither oral argument questions nor academic
literature constitutes an intervening change in the law that would
liberate this panel from its obligation to follow circuit precedent.
5

Because we conclude that Appellants’ argument is foreclosed by
binding circuit precedent, we need not consider whether the
language of the consent agreements in this case prohibits

App. 11
B.
Appellants next argue that even if the district court
had authority to order disgorgement, we should still
reverse because the district court (1) did not afford
Appellants discovery to which they were entitled under
the consent agreements and (2) did not hold an
evidentiary hearing on the appropriate amount of
disgorgement. Appellants also attack the disgorgement
amount itself, contending they are entitled to deduct
legitimate business expenses. We disagree with these
contentions.
First, the district court did not deprive Appellants
of discovery. The court entered the parties’ settlement
agreements, in which they agreed that “[i]n connection
with the [SEC]’s motion for disgorgement and/or civil
penalties, the parties may take discovery, including
discovery from appropriate non-parties.” This was the
opposite of “denying” Appellants discovery. By ratifying
the settlement agreements, the court authorized the
discovery to which the parties agreed. Appellants,
however, failed to follow through by seeking any
discovery. In opposing the SEC’s amended motion for
final judgment, Appellants stated that they should
“have an opportunity in discovery, in advance of a
hearing, to test” the SEC’s disgorgement calculation.
But from October 5, 2017 to June 4, 2018 (the period
between the SEC’s amended motion for final judgment
and the district court’s entry of final judgment),

Appellants from challenging the fact of disgorgement. See de
Maison, --- F. App’x - --, 2019 WL 4127328, at *1 n.1.

App. 12
Appellants made no attempt to seek the discovery they
claimed they wanted.
Appellants cite no authority establishing that a
district court abuses its discretion in this situation.
Discovery in civil litigation is litigant-driven; courts are
not required to prod parties into conducting discovery
if they do not move the process forward themselves. Cf.
Burns v. Thiokol Chem. Corp., 483 F.2d 300, 304 (5th
Cir. 1973) (“The discovery provisions of the Federal
Rules of Civil Procedure allow the parties to develop
fully and crystalize concise factual issues for trial.”)
(emphasis added); Shelak v. White Motor Co., 581 F.2d
1155, 1159 (5th Cir. 1978) (“The rules [governing
discovery] are designed to narrow and clarify the issues
and to give the parties mutual knowledge of all relevant
facts.”) (emphasis added). Moreover, a “district court’s
decisions in overseeing the discovery process are
entitled to great deference on appeal.” United States v.
Mora, 994 F.2d 1129, 1138 (5th Cir. 1993). Appellants
chose not to pursue discovery when it was available
and now ask that we overturn the district court
judgment because of their inaction. We decline to do so.
Moreover, it is unclear what discovery could have
produced here. Appellants assert they wanted
discovery showing the SEC’s disgorgement estimate
was inaccurate because it failed to consider Appellants’
legitimate expenses. But as the SEC points out, any
information that could have been used to rebut the
estimate—e.g., records of any business expenditures—
would have already been in Appellants’ possession. For
this additional reason, we cannot say that the district
court abused its discretion by ruling on the SEC’s

App. 13
motion without ordering discovery to take place
beforehand.
For similar reasons, the district court did not abuse
its discretion by ruling on the SEC’s remedies motion
without holding an evidentiary hearing. The parties’
agreements may have contemplated the possibility of
a hearing, but they did not require one. And the parties
agreed that the district court could resolve issues in the
SEC’s disgorgement motion “on the basis of affidavits,
declarations, excerpts of sworn deposition or
investigative testimony, and documentary evidence.” So
the court’s decision to rule on the SEC’s motion without
first holding a hearing could not have violated
Appellants’ rights under the settlement agreements
because those agreements did not create a right to a
hearing. At best, the agreements established only the
possibility of a hearing.
Further, Appellants never moved for a hearing in
the nearly eight-month period between the SEC’s
amended remedies motion and the court’s order. In
opposing the SEC’s amended motion, Appellants stated
that they should “have an opportunity in discovery, in
advance of a hearing, to test” the disgorgement
calculation. But that is not a motion for a hearing. And
though Appellants also stated in the same opposition
that “a hearing to establish the critical causal
connection and refute directly the SEC’s conclusory
assertions will be necessary,” that is also not a formal
request for a hearing. The district court thus never
denied a request for a hearing because a request was
never made. And Appellants agreed that the district
court could decide the disgorgement amount based on,

App. 14
among other things, documentary evidence. That is
exactly what happened.
Appellants’ reliance on our sister circuit’s decision
in SEC v. Smyth, 420 F.3d 1225 (11th Cir. 2005), is
misplaced. In Smyth, the defendant requested a
hearing, but the district court denied the motion. Id. at
1230. Here, Appellants never moved for a hearing, so
Smyth does not help them. See SEC v. Aerokinetic
Energy Corp., 444 F. App’x 382, 385 (11th Cir. 2011)
(unpublished) (holding evidentiary hearing not
required when not requested and when district court
“[decided] the issues raised in the [SEC’s] motion on
the basis of affidavits, declarations, excerpts of sworn
deposition or investigative testimony, and documentary
evidence”). We therefore conclude that the district
court did not abuse its discretion by ruling on the
SEC’s motion without holding an evidentiary hearing.
We further conclude that the district court did not
abuse its discretion in determining the amount of
disgorgement in this case. As we recently observed,
“the overwhelming weight of authority holds that
securities law violators may not offset their
disgorgement liability with business expenses.”
Kahlon, 873 F.3d at 509 (cleaned up); see also SEC v.
JT Wallenbrock & Assocs., 440 F.3d 1109, 1115 (9th
Cir. 2006) (“[I]t would be unjust to permit the
defendants to offset against the investor dollars they
received the expenses of running the very business they
created to defraud those investors into giving the
defendants the money in the first place.”).
AFFIRMED

App. 15

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:15-CV-01045-N
[Filed June 4, 2018]
_________________________________
SECURITIES AND EXCHANGE )
COMMISSION,
)
Plaintiff,
)
)
v.
)
)
TEAM RESOURCES, INC., et al., )
Defendants.
)
________________________________ )
ORDER
This Order addresses Plaintiff the Securities and
Exchange Commission’s (the “SEC”) amended motion
for remedies and entry of final judgments [61]. For the
reasons set forth below, the Court grants in part and
denies in part the motion.
I. BACKGROUND
This case arises from Defendants Team Resources,
Inc. (“Team Resources”); Fossil Energy Corporation
(“Fossil”) Kevin A. Boyles; John Olivia (collectively, the
“Settlement Defendants”) and Michael Eppy’s

App. 16
participation in a fraudulent oil and gas investing
scheme. Defendants perpetuated the scheme over the
course of approximately five years, resulting in losses
of over $33 million from approximately 475 investors.
Defendants lured investors by touting unreasonable oil
and gas production figures and investment returns.
They then distributed misleading status updates that
led investors to believe that the oil and gas companies
were performing well, when in fact the companies’
performance was dismal. In so doing, Defendants
received large sales commissions ranging from 25% to
35% that they did not disclose to investors. They also
failed to register as securities brokers as required by
law.
The SEC and Defendants eventually settled the
case. The parties left one issue for later determination
by the Court: the amount of monetary relief to be
ordered against each Defendant. Defendants also
agreed to admit the allegations in the SEC’s complaint
solely for the purpose of the SEC’s motion for remedies.
The SEC now moves the Court to order disgorgement,
prejudgement interest, and civil monetary penalties
against Defendants.
II. THE COURT GRANTS IN PART AND
DENIES IN PART THE SEC’S MOTION
A. Defendants are Liable for
Disgorgement and Prejudgment Interest
The Court has broad discretion in determining the
amount of disgorgement in securities actions. See, e.g.,
SEC v. Helms, 2015 WL 5010298, at *19 (W.D. Tex.
Aug. 21, 2015) (citing SEC v. AMX, Int’l, Inc., 7 F.3d

App. 17
71, 73 (5th Cir. 1993)). The Court also has discretion to
award prejudgment interest on these amounts,
generally using the Internal Revenue Service’s
underpayment rate related to income tax arrearages.
Id.
Defendants are liable for disgorgement equal to “a
reasonable approximation of the proceeds causally
connected to the wrongdoing.” Id. (citing SEC v.
Seghers, 298 F. App’x 319, 336 (5th Cir. 2008)). The
disgorgement calculation is constrained by a five-year
statute of limitations. Kokesh v. SEC, 137 S. Ct. 1635,
1639 (2017). Defendants may not offset their liability
with business expenses. Helms, 2015 WL 5010298, at
*19. They may, however, offset amounts repaid to
investors. SEC v. Evolution Capital Advisors, LLC,
2013 WL 5670835, *2 (S.D. Tex. Oct. 16, 2013). In
calculating disgorgement, any risk of uncertainty
“should fall on the wrongdoer whose illegal conduct
created that uncertainty.” Helms, 2015 WL 5010298, at
*19 (quoting SEC v. Patel, 61 F.3d 137, 140 (2d Cir.
1995)).
After reviewing Defendants’ relevant financial
records, the SEC claims that Defendants are liable for
the following disgorgement and prejudgment interest
amounts as a result of their fraudulent scheme:

App. 18
Defendant

Disgorgement Prejudgment
Interest

Boyles/Team
Resources/Fossil1

$15,508,280.13 $2,998,870.71

Olivia

$750,098.69

$149,518.58

Eppy2

$671,826.23

$129,912.52

In response, the Settlement Defendants argue that
the United States Supreme Court’s recent decision in
Kokesh effectively eliminated courts’ authority to create
and impose disgorgement penalties. But “Kokesh
merely held that disgorgement claims are subject to 28
U.S.C. § 2462’s five-year statute of limitations.” SEC v.
Sample, 2017 WL 5569873, at *2 (N.D. Tex. Nov. 20,
2017) (citing Kokesh, 137 S. Ct. at 1638). Indeed, the
Kokesh Court itself stated that “[n]othing in [its]
opinion should be interpreted as an opinion on whether
courts possess authority to order disgorgement in SEC
enforcement proceedings or on whether courts have

1

Boyles is jointly and severally liable for the disgorgement and
prejudgment interest owed by Team Resources and Fossil because
he owned and controlled those entities. See Helms, 2015 WL
5010298, at *19 (“Courts will likely order joint and several liability
against defendants as to the disgorgement figure plus interest
when ‘two or more individuals or entities collaborate or have close
relationships in engaging in the illegal conduct.’” (quoting SEC v.
Hughes Capital Corp., 124 F.3d 449, 455 (3d Cir. 1997))).
2

Eppy and the SEC have agreed on a decreased disgorgement
amount for which Eppy is liable. See Letter to the Court (“Letter”)
1 [74]. The disgorgement and prejudgment interest numbers for
Eppy reflect those decreased amounts.

App. 19
properly applied disgorgement principles in this
context.” 137 S. Ct. at 1642 n.3. The Settlement
Defendants cite no case law to the contrary. The Court
thus rejects their contention that Kokesh impairs its
authority to order disgorgement in securities
enforcement proceedings.
The Settlement Defendants’ remaining arguments
are similarly unavailing. First, they claim that the SEC
failed to approximate reasonably the amount of
proceeds causally connected to their violations. But the
SEC conducted an exhaustive review of the Settlement
Defendants’ financial records and presented to the
Court a detailed listing of every single investment
related to the fraud at issue. Second, the Settlement
Defendants argue that the SEC failed to deduct their
legitimate business expenses from its calculations. But
the “overwhelming weight of authority hold[s] that
securities law violators may not offset their
disgorgement liability with business expenses.” SEC v.
Kahlon, 873 F.3d 500, 509 (5th Cir. 2017) (emphasis in
original) (quoting SEC v. United Energy Partners, Inc.,
88 Fed. App’x 744, 746 (5th Cir. 2004)). Finally, the
Settlement Defendants request a jury trial on the
disgorgement issue. But they fail to cite any case law in
support of their request. The Court thus orders the
Settlement Defendants and Eppy to pay disgorgement
and prejudgment interest in the amounts set forth
above.
B. The Settlement Defendants
are Liable for Civil Penalties
In addition to ordering disgorgement and
prejudgment interest, the Court may also assess civil

App. 20
penalties in securities enforcement actions. See 15
U.S.C. §§ 77t(d), 78u(d). Such civil penalties exist “to
achieve the dual goals of punishment of the individual
violator and deterrence of future violations.” SEC v.
Kenton Capital, Ltd., 69 F. Supp. 2d 1, 17 (D.D.C. 1998)
(internal quotation marks omitted). A court may award
a maximum penalty of the greater of the gross amount
of pecuniary gain or the amount set by statute. Helms,
2015 WL 5010298, at *20.
The amount of civil penalties to assess within the
permissible statutory range is left to the court’s
discretion. See, e.g., SEC v. Kern, 425 F.3d 143, 153 (2d
Cir. 2005). In determining the appropriate penalty,
courts consider:
(1) the egregiousness of the defendant’s conduct;
(2) the degree of the defendant’s scienter;
(3) whether the defendant’s conduct created
substantial losses or the risk of substantial
losses to other persons; (4) whether the
defendant’s conduct was isolated or recurrent;
and (5) whether the penalty should be reduced
due to the defendant’s demonstrated current and
future financial condition.
Helms, 2015 WL 5010298, at *21 (quoting SEC v.
Offill, 2012 WL 1138622, at *3 (N.D. Tex. Apr. 5,
2012)).
Based on the above factors, substantial penalties
against the Settlement Defendants are appropriate in
this case. First, the Settlement Defendants’ conduct
was egregious: they carried out a complex scheme over
the course of five years that defrauded approximately

App. 21
475 investors. Second, the Settlement Defendants acted
with a high degree of scienter: they knowingly or
recklessly deceived hundreds of investors, sometimes
even using aliases while doing so. Third, the
Settlement Defendants’ conduct created substantial
losses of over $15 million to defrauded investors within
the five-year limitations period. And fourth, the
Settlement Defendants’ conduct was recurrent: the
Settlement Defendants repeatedly issued false and
misleading statements to hundreds of investors
throughout the limitations period.
The SEC asserts that it has no current information
regarding the fifth factor, the Settlement Defendants’
financial condition. And while the Settlement
Defendants claim that they plan to present evidence of
financial hardship as a mitigating factor at a hearing,
they present no such evidence in their response to the
SEC’s motion for remedies. Nor do they explain why a
hearing is necessary to determine the amounts for
which they are liable. The fifth factor thus weighs
neither for nor against the imposition of civil penalties.
But because the other four factors weigh in favor of
civil penalties, the Court awards penalties equal to the
disgorgement amounts in section II(A) supra against
each of the Settlement Defendants. Given that the SEC
dropped its scienter-based charges against Eppy, Am.
Mot. for Remedies 3 n.3 [61], the Court denies the
SEC’s motion for civil penalties against Eppy.
CONCLUSION
The Court grants in part and denies in part the
SEC’s motion for remedies. The Court awards
disgorgement, prejudgment interest, and civil penalties

App. 22
against the Settlement Defendants and awards
disgorgement and prejudgment interest against Eppy.
Signed June 4, 2018.
/s/ David C. Godbey
David C. Godbey
United States District Judge

App. 23
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:15-CV-01045-N
[Filed June 4, 2018]
_________________________________
SECURITIES AND EXCHANGE )
COMMISSION,
)
Plaintiff,
)
)
v.
)
)
TEAM RESOURCES, INC., et al., )
Defendants.
)
________________________________ )
FINAL JUDGMENT
By separate Order of this same date, the Court
grants in part and denies in part Plaintiff the
Securities and Exchange Commission’s (the “SEC”)
amended motion for remedies against Defendants
Team Resources, Inc. (“Team Resources”), Fossil
Energy Corporation (“Fossil”), Kevin A. Boyles, John
Olivia, and Michael Eppy.
It is therefore ORDERED that Team Resources,
Fossil, and Boyles are jointly and severally liable for
disgorgement of $15,508,280.13, representing proceeds
gained as a result of the conduct alleged in the SEC’s
complaint (the “Complaint”), together with
prejudgment interest thereon in the amount of
$2,998,870.71, for a total of $18,507,150.84.

App. 24
It is further ORDERED that Boyles is individually
liable for a civil penalty in the amount of
$15,508,280.13 pursuant to section 20(d) of the
Securities Act and section 21(d)(3) of the Exchange Act.
It is further ORDERED that Olivia is individually
liable for disgorgement of $750,098.69, representing
proceeds gained as a result of the conduct alleged in
the Complaint, together with prejudgment interest
thereon in the amount of $149,518.58, for a total of
$899,617.27.
It is further ORDERED that Olivia is individually
liable for a civil penalty in the amount of $750,098.69
pursuant to section 20(d) of the Securities Act and
section 21(d)(3) of the Exchange Act.
It is further ORDERED that Eppy is individually
liable for disgorgement of $671,826.23, representing
proceeds gained as a result of the conduct alleged in
the Complaint, together with prejudgment interest
thereon in the amount of $129,912.52, for a total of
$801,738.75.
All relief not expressly granted herein is denied.
This is a Final Judgment.
Signed June 4, 2018.
/s/ David C. Godbey
David C. Godbey
United States District Judge

App. 25

APPENDIX C
15 U.S.C. § 77t. Injunctions and prosecution of
offenses
(a) Investigation of violations
Whenever it shall appear to the Commission, either
upon complaint or otherwise, that the provisions of this
subchapter, or of any rule or regulation prescribed
under authority thereof, have been or are about to be
violated, it may, in its discretion, either require or
permit such person to file with it a statement in
writing, under oath, or otherwise, as to all the facts and
circumstances concerning the subject matter which it
believes to be in the public interest to investigate, and
may investigate such facts.
(b) Action for injunction or criminal prosecution in
district court
Whenever it shall appear to the Commission that any
person is engaged or about to engage in any acts or
practices which constitute or will constitute a violation
of the provisions of this subchapter, or of any rule or
regulation prescribed under authority thereof, the
Commission may, in its discretion, bring an action in
any district court of the United States, or United States
court of any Territory, to enjoin such acts or practices,
and upon a proper showing, a permanent or temporary
injunction or restraining order shall be granted without
bond. The Commission may transmit such evidence as
may be available concerning such acts or practices to

App. 26
the Attorney General who may, in his discretion,
institute the necessary criminal proceedings under this
subchapter. Any such criminal proceeding may be
brought either in the district wherein the transmittal
of the prospectus or security complained of begins, or in
the district wherein such prospectus or security is
received.
(c) Writ of mandamus
Upon application of the Commission, the district courts
of the United States and the United States courts of
any Territory shall have jurisdiction to issue writs of
mandamus commanding any person to comply with the
provisions of this subchapter or any order of the
Commission made in pursuance thereof.
(d) Money penalties in civil actions
(1) Authority of Commission
Whenever it shall appear to the Commission that
any person has violated any provision of this
subchapter, the rules or regulations thereunder, or
a cease-and-desist order entered by the Commission
pursuant to section 77h–1 of this title, other than by
committing a violation subject to a penalty
pursuant to section 78u–1 of this title, the
Commission may bring an action in a United States
district court to seek, and the court shall have
jurisdiction to impose, upon a proper showing, a
civil penalty to be paid by the person who
committed such violation.

App. 27
(2) Amount of penalty
(A) First tier
The amount of the penalty shall be determined
by the court in light of the facts and
circumstances. For each violation, the amount of
the penalty shall not exceed the greater of
(i) $5,000 for a natural person or $50,000 for any
other person, or (ii) the gross amount of
pecuniary gain to such defendant as a result of
the violation.
(B) Second tier
Notwithstanding subparagraph (A), the amount
of penalty for each such violation shall not
exceed the greater of (i) $50,000 for a natural
person or $250,000 for any other person, or
(ii) the gross amount of pecuniary gain to such
defendant as a result of the violation, if the
violation described in paragraph (1) involved
fraud, deceit, manipulation, or deliberate or
reckless disregard of a regulatory requirement.
(C) Third tier Notwithstanding subparagraphs
(A) and (B), the amount of penalty for each such
violation shall not exceed the greater of
(i) $100,000 for a natural person or $500,000 for
any other person, or (ii) the gross amount of
pecuniary gain to such defendant as a result of
the violation, if—
(I) the violation described in paragraph (1)
involved fraud, deceit, manipulation, or

App. 28
deliberate or reckless disregard
regulatory requirement; and

of

a

(II) such violation directly or indirectly
resulted in substantial losses or created a
significant risk of substantial losses to other
persons.
(3) Procedures for collection
(A) Payment of penalty to Treasury
A penalty imposed under this section shall be
payable into the Treasury of the United States,
except as otherwise provided in section 7246 of
this title and section 78u–6 of this title.
(B) Collection of penalties
If a person upon whom such a penalty is
imposed shall fail to pay such penalty within the
time prescribed in the court’s order, the
Commission may refer the matter to the
Attorney General who shall recover such penalty
by action in the appropriate United States
district court.
(C) Remedy not exclusive
The actions authorized by this subsection may
be brought in addition to any other action that
the Commission or the Attorney General is
entitled to bring.

App. 29
(D) Jurisdiction and venue
For purposes of section 77v of this title, actions
under this section shall be actions to enforce a
liability or a duty created by this subchapter.
(4) Special provisions relating to a violation of a
cease-and-desist order
In an action to enforce a cease-and-desist order
entered by the Commission pursuant to section 77h–1
of this title, each separate violation of such order shall
be a separate offense, except that in the case of a
violation through a continuing failure to comply with
such an order, each day of the failure to comply with
the order shall be deemed a separate offense.
(e) Authority of court to prohibit persons from serving
as officers and directors
In any proceeding under subsection (b), the court may
prohibit, conditionally or unconditionally, and
permanently or for such period of time as it shall
determine, any person who violated section 77q(a)(1) of
this title from acting as an officer or director of any
issuer that has a class of securities registered pursuant
to section 78l of this title or that is required to file
reports pursuant to section 78o(d) of this title if the
person’s conduct demonstrates unfitness to serve as an
officer or director of any such issuer.
(f) Prohibition of attorneys’ fees paid from Commission
disgorgement funds
Except as otherwise ordered by the court upon motion
by the Commission, or, in the case of an administrative

App. 30
action, as otherwise ordered by the Commission, funds
disgorged as the result of an action brought by the
Commission in Federal court, or as a result of any
Commission administrative action, shall not be
distributed as payment for attorneys’ fees or expenses
incurred by private parties seeking distribution of the
disgorged funds.
(g) Authority of a court to prohibit persons from
participating in an offering of penny stock
(1) In general
In any proceeding under subsection (a) against any
person participating in, or, at the time of the alleged
misconduct, who was participating in, an offering of
penny stock, the court may prohibit that person
from participating in an offering of penny stock,
conditionally or unconditionally, and permanently
or for such period of time as the court shall
determine.
(2) Definition
For purposes of this subsection, the term “person
participating in an offering of penny stock” includes
any person engaging in activities with a broker,
dealer, or issuer for purposes of issuing, trading, or
inducing or attempting to induce the purchase or
sale of, any penny stock. The Commission may, by
rule or regulation, define such term to include other
activities, and may, by rule, regulation, or order,
exempt any person or class of persons, in whole or
in part, conditionally or unconditionally, from
inclusion in such term.

App. 31
15 U.S.C. § 77v. Jurisdiction of offenses and suits
(a) Federal and State courts; venue; service of process;
review; removal; costs
The district courts of the United States and the United
States courts of any Territory shall have jurisdiction of
offenses and violations under this subchapter and
under the rules and regulations promulgated by the
Commission in respect thereto, and, concurrent with
State and Territorial courts, except as provided in
section 77p of this title with respect to covered class
actions, of all suits in equity and actions at law brought
to enforce any liability or duty created by this
subchapter. Any such suit or action may be brought in
the district wherein the defendant is found or is an
inhabitant or transacts business, or in the district
where the offer or sale took place, if the defendant
participated therein, and process in such cases may be
served in any other district of which the defendant is
an inhabitant or wherever the defendant may be found.
In any action or proceeding instituted by the
Commission under this subchapter in a United States
district court for any judicial district, a subpoena
issued to compel the attendance of a witness or the
production of documents or tangible things (or both) at
a hearing or trial may be served at any place within the
United States. Rule 45(c)(3)(A)(ii) of the Federal Rules
of Civil Procedure shall not apply to a subpoena issued
under the preceding sentence. Judgments and decrees
so rendered shall be subject to review as provided in
sections 1254, 1291, 1292, and 1294 of title 28. Except
as provided in section 77p(c) of this title, no case
arising under this subchapter and brought in any State

App. 32
court of competent jurisdiction shall be removed to any
court of the United States. No costs shall be assessed
for or against the Commission in any proceeding under
this subchapter brought by or against it in the
Supreme Court or such other courts.
(b) Contumacy or refusal to obey subpena; contempt
In case of contumacy or refusal to obey a subpena
issued to any person, any of the said United States
courts, within the jurisdiction of which said person
guilty of contumacy or refusal to obey is found or
resides, upon application by the Commission may issue
to such person an order requiring such person to
appear before the Commission, or one of its examiners
designated by it, there to produce documentary
evidence if so ordered, or there to give evidence
touching the matter in question; and any failure to
obey such order of the court may be punished by said
court as a contempt thereof.
(c) Extraterritorial jurisdiction The district courts of
the United States and the United States courts of any
Territory shall have jurisdiction of an action or
proceeding brought or instituted by the Commission or
the United States alleging a violation of section 77q(a)
of this title involving—
(1) conduct within the United States that
constitutes significant steps in furtherance of the
violation, even if the securities transaction occurs
outside the United States and involves only foreign
investors; or

App. 33
(2) conduct occurring outside the United States that
has a foreseeable substantial effect within the
United States.

App. 34
15 U.S.C. § 78u. Investigations and actions
(a) Authority and discretion of Commission to
investigate violations
(1) The Commission may, in its discretion, make
such investigations as it deems necessary to
determine whether any person has violated, is
violating, or is about to violate any provision of this
chapter, the rules or regulations thereunder, the
rules of a national securities exchange or registered
securities association of which such person is a
member or a person associated, or, as to any act or
practice, or omission to act, while associated with a
member, formerly associated with a member, the
rules of a registered clearing agency in which such
person is a participant, or, as to any act or practice,
or omission to act, while a participant, was a
participant, the rules of the Public Company
Accounting Oversight Board, of which such person
is a registered public accounting firm, a person
associated with such a firm, or, as to any act,
practice, or omission to act, while associated with
such firm, a person formerly associated with such a
firm, or the rules of the Municipal Securities
Rulemaking Board, and may require or permit any
person to file with it a statement in writing, under
oath or otherwise as the Commission shall
determine, as to all the facts and circumstances
concerning the matter to be investigated. The
Commission is authorized in its discretion, to
publish information concerning any such violations,
and to investigate any facts, conditions, practices, or
matters which it may deem necessary or proper to

App. 35
aid in the enforcement of such provisions, in the
prescribing of rules and regulations under this
chapter, or in securing information to serve as a
basis for recommending further legislation
concerning the matters to which this chapter
relates.
(2) On request from a foreign securities authority,
the Commission may provide assistance in
accordance with this paragraph if the requesting
authority states that the requesting authority is
conducting an investigation which it deems
necessary to determine whether any person has
violated, is violating, or is about to violate any laws
or rules relating to securities matters that the
requesting authority administers or enforces. The
Commission may, in its discretion, conduct such
investigation as the Commission deems necessary
to collect information and evidence pertinent to the
request for assistance. Such assistance may be
provided without regard to whether the facts stated
in the request would also constitute a violation of
the laws of the United States. In deciding whether
to provide such assistance, the Commission shall
consider whether (A) the requesting authority has
agreed to provide reciprocal assistance in securities
matters to the Commission; and (B) compliance
with the request would prejudice the public interest
of the United States.
(b) Attendance of witnesses; production of records
For the purpose of any such investigation, or any other
proceeding under this chapter, any member of the
Commission or any officer designated by it is

App. 36
empowered to administer oaths and affirmations,
subpena witnesses, compel their attendance, take
evidence, and require the production of any books,
papers, correspondence, memoranda, or other records
which the Commission deems relevant or material to
the inquiry. Such attendance of witnesses and the
production of any such records may be required from
any place in the United States or any State at any
designated place of hearing.
(c) Judicial enforcement of investigative power of
Commission; refusal to obey subpena; criminal
sanctions
In case of contumacy by, or refusal to obey a subpena
issued to, any person, the Commission may invoke the
aid of any court of the United States within the
jurisdiction of which such investigation or proceeding
is carried on, or where such person resides or carries on
business, in requiring the attendance and testimony of
witnesses and the production of books, papers,
correspondence, memoranda, and other records. And
such court may issue an order requiring such person to
appear before the Commission or member or officer
designated by the Commission, there to produce
records, if so ordered, or to give testimony touching the
matter under investigation or in question; and any
failure to obey such order of the court may be punished
by such court as a contempt thereof. All process in any
such case may be served in the judicial district whereof
such person is an inhabitant or wherever he may be
found. Any person who shall, without just cause, fail or
refuse to attend and testify or to answer any lawful
inquiry or to produce books, papers, correspondence,

App. 37
memoranda, and other records, if in his power so to do,
in obedience to the subpena of the Commission, shall be
guilty of a misdemeanor and, upon conviction, shall be
subject to a fine of not more than $1,000 or to
imprisonment for a term of not more than one year, or
both.
(d) Injunction proceedings; authority of court to
prohibit persons from serving as officers and directors;
money penalties in civil actions
(1) Whenever it shall appear to the Commission
that any person is engaged or is about to engage in
acts or practices constituting a violation of any
provision of this chapter, the rules or regulations
thereunder, the rules of a national securities
exchange or registered securities association of
which such person is a member or a person
associated with a member, the rules of a registered
clearing agency in which such person is a
participant, the rules of the Public Company
Accounting Oversight Board, of which such person
is a registered public accounting firm or a person
associated with such a firm, or the rules of the
Municipal Securities Rulemaking Board, it may in
its discretion bring an action in the proper district
court of the United States, the United States
District Court for the District of Columbia, or the
United States courts of any territory or other place
subject to the jurisdiction of the United States, to
enjoin such acts or practices, and upon a proper
showing a permanent or temporary injunction or
restraining order shall be granted without bond.
The Commission may transmit such evidence as

App. 38
may be available concerning such acts or practices
as may constitute a violation of any provision of this
chapter or the rules or regulations thereunder to
the Attorney General, who may, in his discretion,
institute the necessary criminal proceedings under
this chapter.
(2) Authority of Court To Prohibit Persons From
Serving as Officers and Directors.—
In any proceeding under paragraph (1) of this
subsection, the court may prohibit, conditionally or
unconditionally, and permanently or for such period
of time as it shall determine, any person who
violated section 78j(b) of this title or the rules or
regulations thereunder from acting as an officer or
director of any issuer that has a class of securities
registered pursuant to section 78l of this title or
that is required to file reports pursuant to section
78o(d) of this title if the person’s conduct
demonstrates unfitness to serve as an officer or
director of any such issuer.
(3) Money Penalties in Civil Actions.—
(A) Authority of commission.—
Whenever it shall appear to the Commission
that any person has violated any provision of
this chapter, the rules or regulations
thereunder, or a cease-and-desist order entered
by the Commission pursuant to section 78u–3 of
this title, other than by committing a violation
subject to a penalty pursuant to section 78u–1 of
this title, the Commission may bring an action
in a United States district court to seek, and the

App. 39
court shall have jurisdiction to impose, upon a
proper showing, a civil penalty to be paid by the
person who committed such violation.
(B) Amount of penalty.—
(i) First tier.—
The amount of the penalty shall be
determined by the court in light of the facts
and circumstances. For each violation, the
amount of the penalty shall not exceed the
greater of (I) $5,000 for a natural person or
$50,000 for any other person, or (II) the gross
amount of pecuniary gain to such defendant
as a result of the violation.
(ii) Second tier.—
Notwithstanding clause (i), the amount of
penalty for each such violation shall not
exceed the greater of (I) $50,000 for a natural
person or $250,000 for any other person, or
(II) the gross amount of pecuniary gain to
such defendant as a result of the violation, if
the violation described in subparagraph (A)
involved fraud, deceit, manipulation, or
deliberate or reckless disregard of a
regulatory requirement.
(iii) Third tier.—Notwithstanding clauses
(i) and (ii), the amount of penalty for each
such violation shall not exceed the greater of
(I) $100,000 for a natural person or $500,000
for any other person, or (II) the gross amount

App. 40
of pecuniary gain to such defendant as a
result of the violation, if—
(aa) the violation described in
subparagraph (A) involved fraud, deceit,
manipulation, or deliberate or reckless
disregard of a regulatory requirement;
and
(bb) such violation directly or indirectly
resulted in substantial losses or created a
significant risk of substantial losses to
other persons.
(C) Procedures for collection.—
(i) Payment of penalty to treasury.—
A penalty imposed under this section shall be
payable into the Treasury of the United
States, except as otherwise provided in
section 7246 of this title and section 78u–6 of
this title.
(ii) Collection of penalties.—
If a person upon whom such a penalty is
imposed shall fail to pay such penalty within
the time prescribed in the court’s order, the
Commission may refer the matter to the
Attorney General who shall recover such
penalty by action in the appropriate United
States district court.

App. 41
(iii) Remedy not exclusive.—
The actions authorized by this paragraph
may be brought in addition to any other
action that the Commission or the Attorney
General is entitled to bring.
(iv) Jurisdiction and venue.—
For purposes of section 78aa of this title,
actions under this paragraph shall be actions
to enforce a liability or a duty created by this
chapter.
(D) Special provisions relating to a violation of a
cease-and-desist order.—
In an action to enforce a cease-and-desist order
entered by the Commission pursuant to section
78u–3 of this title, each separate violation of
such order shall be a separate offense, except
that in the case of a violation through a
continuing failure to comply with the order, each
day of the failure to comply shall be deemed a
separate offense.
(4) Prohibition of attorneys’ fees paid from
commission disgorgement funds.—
Except as otherwise ordered by the court upon
motion by the Commission, or, in the case of an
administrative action, as otherwise ordered by the
Commission, funds disgorged as the result of an
action brought by the Commission in Federal court,
or as a result of any Commission administrative
action, shall not be distributed as payment for

App. 42
attorneys’ fees or expenses incurred by private
parties seeking distribution of the disgorged funds.
(5) Equitable Relief.—
In any action or proceeding brought or instituted by
the Commission under any provision of the
securities laws, the Commission may seek, and any
Federal court may grant, any equitable relief that
may be appropriate or necessary for the benefit of
investors.
(6) Authority of a court to prohibit persons from
participating in an offering of penny stock.—
(A) In general.—
In any proceeding under paragraph (1) against
any person participating in, or, at the time of the
alleged misconduct who was participating in, an
offering of penny stock, the court may prohibit
that person from participating in an offering of
penny stock, conditionally or unconditionally,
and permanently or for such period of time as
the court shall determine.
(B) Definition.—
For purposes of this paragraph, the term “person
participating in an offering of penny stock”
includes any person engaging in activities with
a broker, dealer, or issuer for purposes of
issuing, trading, or inducing or attempting to
induce the purchase or sale of, any penny stock.
The Commission may, by rule or regulation,
define such term to include other activities, and

App. 43
may, by rule, regulation, or order, exempt any
person or class of persons, in whole or in part,
conditionally or unconditionally, from inclusion
in such term.
(e) Mandamus
Upon application of the Commission the district courts
of the United States and the United States courts of
any territory or other place subject to the jurisdiction
of the United States shall have jurisdiction to issue
writs of mandamus, injunctions, and orders
commanding (1) any person to comply with the
provisions of this chapter, the rules, regulations, and
orders thereunder, the rules of a national securities
exchange or registered securities association of which
such person is a member or person associated with a
member, the rules of a registered clearing agency in
which such person is a participant, the rules of the
Public Company Accounting Oversight Board, of which
such person is a registered public accounting firm or a
person associated with such a firm, the rules of the
Municipal Securities Rulemaking Board, or any
undertaking contained in a registration statement as
provided in subsection (d) of section 78o of this title,
(2) any national securities exchange or registered
securities association to enforce compliance by its
members and persons associated with its members
with the provisions of this chapter, the rules,
regulations, and orders thereunder, and the rules of
such exchange or association, or (3) any registered
clearing agency to enforce compliance by its
participants with the provisions of the rules of such
clearing agency.

App. 44
(f) Rules of self-regulatory organizations or Board
Notwithstanding any other provision of this chapter,
the Commission shall not bring any action pursuant to
subsection (d) or (e) of this section against any person
for violation of, or to command compliance with, the
rules of a self-regulatory organization or the Public
Company Accounting Oversight Board unless it
appears to the Commission that (1) such self-regulatory
organization or the Public Company Accounting
Oversight Board is unable or unwilling to take
appropriate action against such person in the public
interest and for the protection of investors, or (2) such
action is otherwise necessary or appropriate in the
public interest or for the protection of investors.
(g) Consolidation of actions; consent of Commission
Notwithstanding the provisions of section 1407(a) of
title 28, or any other provision of law, no action for
equitable relief instituted by the Commission pursuant
to the securities laws shall be consolidated or
coordinated with other actions not brought by the
Commission, even though such other actions may
involve common questions of fact, unless such
consolidation is consented to by the Commission.
(h) Access to records
(1) The Right to Financial Privacy Act of 1978 [12
U.S.C. 3401 et seq.] shall apply with respect to the
Commission, except as otherwise provided in this
subsection.
(2) Notwithstanding section 1105 or 1107 of the
Right to Financial Privacy Act of 1978 [12 U.S.C.

App. 45
3405 or 3407], the Commission may have access to
and obtain copies of, or the information contained in
financial records of a customer from a financial
institution without prior notice to the customer
upon an ex parte showing to an appropriate United
States district court that the Commission seeks
such financial records pursuant to a subpena issued
in conformity with the requirements of section 19(b)
of the Securities Act of 1933, section 21(b) of the
Securities Exchange Act of 1934 [15 U.S.C. 78u(b)],
section 42(b) of the Investment Company Act of
1940 [15 U.S.C. 80a–41(b)], or section 209(b) of the
Investment Advisers Act of 1940 [15 U.S.C.
80b–9(b)], and that the Commission has reason to
believe that—
(A) delay in obtaining access to such financial
records, or the required notice, will result in—
(i) flight from prosecution;
(ii) destruction
evidence;

of

or

tampering

with

(iii) transfer of assets or records outside the
territorial limits of the United States;
(iv) improper conversion of investor assets; or
(v) impeding the ability of the Commission to
identify or trace the source or disposition of
funds involved in any securities transaction;
(B) such financial records are necessary to
identify or trace the record or beneficial
ownership interest in any security;

App. 46
(C) the acts, practices or course of conduct under
investigation involve—
(i) the dissemination of materially false or
misleading information concerning any
security, issuer, or market, or the failure to
make disclosures required under the
securities laws, which remain uncorrected; or
(ii) a financial loss to investors or other
persons protected under the securities laws
which remains substantially uncompensated;
or
(D) the acts, practices or course of conduct under
investigation—
(i) involve significant financial speculation in
securities; or
(ii) endanger the stability of any financial or
investment intermediary.
(3) Any application under paragraph (2) for a delay
in notice shall be made with reasonable specificity.
(4)
(A) Upon a showing described in paragraph (2),
the presiding judge or magistrate judge shall
enter an ex parte order granting the requested
delay for a period not to exceed ninety days and
an order prohibiting the financial institution
involved from disclosing that records have been
obtained or that a request for records has been
made.

App. 47
(B) Extensions of the period of delay of notice
provided in subparagraph (A) of up to ninety
days each may be granted by the court upon
application, but only in accordance with this
subsection or section 1109(a), (b)(1), or (b)(2) of
the Right to Financial Privacy Act of 1978 [12
U.S.C. 3409(a), (b)(1), or (b)(2)].
(C) Upon expiration of the period of delay of
notification ordered under subparagraph (A) or
(B), the customer shall be served with or mailed
a copy of the subpena insofar as it applies to the
customer together with the following notice
which shall describe with reasonable specificity
the nature of the investigation for which the
Commission sought the financial records:
“Records or information concerning your
transactions which are held by the financial
institution named in the attached subpena were
supplied to the Securities and Exchange
Commission on (date). Notification was withheld
pursuant to a determination by the (title of court
so ordering) under section 21(h) of the Securities
Exchange Act of 1934 that (state reason). The
purpose of the investigation or official
proceeding was (state purpose).”
(5) Upon application by the Commission, all
proceedings pursuant to paragraphs (2) and (4)
shall be held in camera and the records thereof
sealed until expiration of the period of delay or such
other date as the presiding judge or magistrate
judge may permit.

App. 48
(6) Repealed. Pub. L. 114–113, div. O, title VII,
§ 708, Dec. 18, 2015, 129 Stat. 3030.
(7)
(A) Following the expiration of the period of
delay of notification ordered by the court
pursuant to paragraph (4) of this subsection, the
customer may, upon motion, reopen the
proceeding in the district court which issued the
order. If the presiding judge or magistrate judge
finds that the movant is the customer to whom
the records obtained by the Commission pertain,
and that the Commission has obtained financial
records or information contained therein in
violation of this subsection, other than
paragraph (1), it may order that the customer be
granted civil penalties against the Commission
in an amount equal to the sum of—
(i) $100 without regard to the volume of
records involved;
(ii) any out-of-pocket damages sustained by
the customer as a direct result of the
disclosure; and
(iii) if the violation is found to have been
willful, intentional, and without good faith,
such punitive damages as the court may
allow, together with the costs of the action
and reasonable attorney’s fees as determined
by the court.
(B) Upon a finding that the Commission has
obtained financial records or information

App. 49
contained therein in violation of this subsection,
other than paragraph (1), the court, in its
discretion, may also or in the alternative issue
injunctive relief to require the Commission to
comply with this subsection with respect to any
subpena which the Commission issues in the
future for financial records of such customer for
purposes of the same investigation.
(C) Whenever the court determines that the
Commission has failed to comply with this
subsection, other than paragraph (1), and the
court finds that the circumstances raise
questions of whether an officer or employee of
the Commission acted in a willful and
intentional manner and without good faith with
respect to the violation, the Office of Personnel
Management shall promptly initiate a
proceeding to determine whether disciplinary
action is warranted against the agent or
employee who was primarily responsible for the
violation. After investigating and considering
the evidence submitted, the Office of Personnel
Management shall submit its findings and
recommendations to the Commission and shall
send copies of the findings and recommendations
to the officer or employee or his representative.
The Commission shall take the corrective action
that the Office of Personnel Management
recommends.
(8) The relief described in paragraphs (7) and (10)
shall be the only remedies or sanctions available to
a customer for a violation of this subsection, other

App. 50
than paragraph (1), and nothing herein or in the
Right to Financial Privacy Act of 1978 [12 U.S.C.
3401 et seq.] shall be deemed to prohibit the use in
any investigation or proceeding of financial records,
or the information contained therein, obtained by a
subpena issued by the Commission. In the case of
an unsuccessful action under paragraph (7), the
court shall award the costs of the action and
attorney’s fees to the Commission if the presiding
judge or magistrate judge finds that the customer’s
claims were made in bad faith.
(9)
(A) The Commission may transfer financial
records or the information contained therein to
any government authority if the Commission
proceeds as a transferring agency in accordance
with section 1112 of the Right to Financial
Privacy Act of 1978 [12 U.S.C. 3412], except that
the customer notice required under section
1112(b) or (c) of such Act [12 U.S.C. 3412(b) or
(c)] may be delayed upon a showing by the
Commission, in accordance with the procedure
set forth in paragraphs (4) and (5), that one or
more of subparagraphs (A) through (D) of
paragraph (2) apply.
(B) The Commission may, without notice to the
customer pursuant to section 1112 or the Right
to Financial Privacy Act of 1978 [12 U.S.C.
3412], transfer financial records or the
information contained therein to a State
securities agency or to the Department of
Justice. Financial records or information

App. 51
transferred by the Commission to the
Department of Justice or to a State securities
agency pursuant to the provisions of this
subparagraph may be disclosed or used only in
an administrative, civil, or criminal action or
investigation by the Department of Justice or
the State securities agency which arises out of or
relates to the acts, practices, or courses of
conduct investigated by the Commission, except
that if the Department of Justice or the State
securities agency determines that the
information should be disclosed or used for any
other purpose, it may do so if it notifies the
customer, except as otherwise provided in the
Right to Financial Privacy Act of 1978 [12 U.S.C.
3401 et seq.], within 30 days of its
determination, or complies with the
requirements of section 1109 of such Act [12
U.S.C. 3409] regarding delay of notice.
(10) Any government authority violating
paragraph (9) shall be subject to the procedures
and penalties applicable to the Commission
under paragraph (7)(A) with respect to a
violation by the Commission in obtaining
financial records.
(11) Notwithstanding the provisions of this
subsection, the Commission may obtain financial
records from a financial institution or transfer
such records in accordance with provisions of the
Right to Financial Privacy Act of 1978 [12 U.S.C.
3401 et seq.].

App. 52
(12) Nothing in this subsection shall enlarge or
restrict any rights of a financial institution to
challenge requests for records made by the
Commission under existing law. Nothing in this
subsection shall entitle a customer to assert any
rights of a financial institution.
(13) Unless the context otherwise requires, all
terms defined in the Right to Financial Privacy
Act of 1978 [12 U.S.C. 3401 et seq.] which are
common to this subsection shall have the same
meaning as in such Act.
(i) Information to CFTC
The Commission shall provide the Commodity Futures
Trading Commission with notice of the commencement
of any proceeding and a copy of any order entered by
the Commission against any broker or dealer registered
pursuant to section 78o(b)(11) of this title, any
exchange registered pursuant to section 78f(g) of this
title, or any national securities association registered
pursuant to section 78o–3(k) of this title.

App. 53
15 U.S.C. § 78aa. Jurisdiction of offenses and suits
(a) In general
The district courts of the United States and the United
States courts of any Territory or other place subject to
the jurisdiction of the United States shall have
exclusive jurisdiction of violations of this chapter or the
rules and regulations thereunder, and of all suits in
equity and actions at law brought to enforce any
liability or duty created by this chapter or the rules and
regulations thereunder. Any criminal proceeding may
be brought in the district wherein any act or
transaction constituting the violation occurred. Any
suit or action to enforce any liability or duty created by
this chapter or rules and regulations thereunder, or to
enjoin any violation of such chapter or rules and
regulations, may be brought in any such district or in
the district wherein the defendant is found or is an
inhabitant or transacts business, and process in such
cases may be served in any other district of which the
defendant is an inhabitant or wherever the defendant
may be found. In any action or proceeding instituted by
the Commission under this chapter in a United States
district court for any judicial district, a subpoena
issued to compel the attendance of a witness or the
production of documents or tangible things (or both) at
a hearing or trial may be served at any place within the
United States. Rule 45(c)(3)(A)(ii) of the Federal Rules
of Civil Procedure shall not apply to a subpoena issued
under the preceding sentence. Judgments and decrees
so rendered shall be subject to review as provided in
sections 1254, 1291, 1292, and 1294 of title 28. No costs
shall be assessed for or against the Commission in any

App. 54
proceeding under this chapter brought by or against it
in the Supreme Court or such other courts.
(b) Extraterritorial jurisdiction The district courts of
the United States and the United States courts of any
Territory shall have jurisdiction of an action or
proceeding brought or instituted by the Commission or
the United States alleging a violation of the antifraud
provisions of this chapter involving—
(1) conduct within the United States that
constitutes significant steps in furtherance of the
violation, even if the securities transaction occurs
outside the United States and involves only foreign
investors; or
(2) conduct occurring outside the United States that
has a foreseeable substantial effect within the
United States.

